Voice Credit Card Terms and Conditions
THE VOICE CREDIT CARD CARDHOLDER AGREEMENT (WHICH WILL BE INCLUDED IN THE CARD PACKAGE IF YOU ARE
APPROVED) INCLUDES AN ARBITRATION PROVISION AND A JURY TRIAL WAIVER. IF A DISPUTE BETWEEN YOU AND US
IS ARBITRATED, THE ARBITRATION PROVISION, UNLESS REJECTED BY YOU WILL SUBSTANTIALLY AFFECT YOUR
RIGHTS, INCLUDING YOUR RIGHT TO HAVE A COURT OR JURY TRIAL OR TO BRING, JOIN IN OR PARTICIPATE IN CLASS
PROCEEDINGS. IF THE DISPUTE IS NOT ARBITRATED, THE JURY TRIAL WAIVER WILL ELIMINATE YOUR RIGHT TO A
TRIAL BY JURY IN COURT. HOWEVER, THE ARBITRATION PROVISION AND JURY TRIAL WAIVER WILL NOT APPLY TO THE
EXTENT THAT YOU ARE A “COVERED BORROWER” PROTECTED BY THE MILITARY LENDING ACT.

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Rewards Option

Lower Rate Option

11.99% - 25.99%

9.99% - 23.99%

Based on your creditworthiness.

Based on your creditworthiness.

These APRs will vary with the market based on the Prime Rate.¹
APR for Balance Transfers

0.00% Introductory APR for the first
12 billing cycles following account
opening on any balance transfer made
within the first 90 days following
account opening². After that, your
APR will be at or between:

0.00% Introductory APR for the first
12 billing cycles following account
opening on any balance transfer made
within the first 90 days following
account opening². After that, your
APR will be at or between:

11.99 % - 25.99%
Based on your creditworthiness.

9.99 % - 23.99%
Based on your creditworthiness.

These APRs will vary with the market based on the Prime Rate.¹
APR for Cash Advances

23.99% - 28.99%³
These APRs are based on your creditworthiness and will vary with the market
based on the Prime Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 21 days after the close of each billing cycle. We will
not charge you interest on purchases if you pay your entire balance by the due
date each month. We will begin charging interest on cash advances and balance
transfers on the transaction date.

Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection
Bureau

If you are charged interest, the charge will be no less than $1.00
To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore .

Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance

None
The greater of $10.00 or 3% of the amount of each Balance Transfer.
The greater of $10.00 or 3% of the amount of each Cash Advance

Penalty Fees
• Late Payment

FORM: RRCARDSCHUMERBOXCUSTSTAT (01/21)

Up to $40

1 of 3

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See your
account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account agreement.
¹ For the Rewards Option, we add a margin of between 8.74% and 22.74 % to the Prime Rate to determine the
Purchase/Balance Transfer APR. For the Lower Rate Option, we add a margin of between 6.74 % and 20.74 % to the Prime
Rate to determine the Purchase/Balance Transfer APR.
² Loss of Introductory Rate: We may end your introductory APR and apply the post-introductory Purchase/Balance
Transfer APR if all or part of your required minimum monthly payment is more than 60 days late.
³ We add a margin of between 20.74 % and 25.74 % to the Prime Rate to determine the Cash Advance APR.
If you transfer a balance at the introductory rate, any purchases you make with your card will be charged interest unless
you pay the entire balance (including any transferred balances) in full each month, by the payment due date.
This information is accurate as of 09/2021 and is subject to change after this date. For current information please contact
Huntington National Bank at PO Box 1558, Columbus, OH 43272 or call us at 1-800-480-BANK for any changes.
Variable APRs Based on Prime. If any APR is based on the U.S. Prime Rate (“Prime Rate”), the APR will equal the Prime Rate
plus the additional amount shown above. If the Prime Rate increases, it will cause the APR to increase. If the Prime Rate
decreases, it will cause the APR to decrease. For each billing period we use the Prime Rate published in The Wall Street
Journal two business days before the Statement Closing Date. If the Prime Rate causes an APR to change, we put the new
APR into effect as of the first day of the billing period for which we calculate the APR. We apply the new APR to any
existing balances, subject to any promotional rate that may apply. If The Wall Street Journal does not publish the Prime
Rate, we will use a similar published rate.
Changes: We may add, change or delete the terms of your Account (including, but not limited to, Annual Percentage Rate
and other significant changes). If notice is required, it will be mailed to you at least forty-five (45) days prior to the
effective date of the change. Notice may also include a statement of your right to cancel the Account prior to the effective
date of the change.
Application Terms: You hereby request a Huntington Credit Card. This application is subject to the approval of, and any
credit will be extended by, The Huntington National Bank (referred to as "we", "us", "our") 41 South High Street, Columbus,
Ohio. You certify that you have answered the questions in this application fully and truthfully, and that you have not
omitted any material information.
Obtaining Consumer Reports and Sharing Information: We may obtain credit or other consumer reports on you, check
your credit and verify with others information you provide in connection with this application. We may report our credit and
other experience with you to consumer reporting agencies and others who we determine have a legitimate need for the
information.
Voice Consumer Credit Card Rewards Program
The Voice Consumer Credit Card Rewards Terms and Conditions govern the Voice Consumer Credit Card Rewards program
and are available at https://www.huntington.com/account-disclosures .
The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy customers,
and that credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights
Commission administers compliance with this law.
Notice to Married Wisconsin Residents: No provision of any marital property agreement, unilateral statement or court
decree adversely affects our rights, unless you give us a copy of such agreement, statement or court order before we grant
you credit, or we have actual knowledge of the adverse obligation. All obligations on this account will be incurred in the
interest of your marriage or family. You understand that we may be required to give notice of this account to your spouse.
If the credit card for which you are applying is granted, you will notify the Bank if you have a spouse who needs to receive
notification that credit has been extended to you.
New York Residents: New York residents may contact the New York State Department of Financial Services at
1-800-342-3736 or go to www.dfs.ny.gov to obtain a comparative list of credit card rates, fees, and grace periods.
2 of 3

Member FDIC.

, Huntington®, Huntington and Voice Credit Card® are federally registered service marks of Huntington Bancshares
Incorporated. VoiceSM is a service mark of Huntington Bancshares Incorporated.
©2021 Huntington Bancshares Incorporated.

®

3 of 3

Voice Credit Card Cardholder Agreement
Thank you for opening a Credit Card Account with The Huntington National Bank. This Agreement and your Account
Opening Disclosures (which are incorporated herein by reference), and any future changes we may make, is your contract
with us. It governs the use of your Card and Account.
Definitions
In this Agreement "you", "your" and "yourself" mean each applicant or co-applicant for the Account, any person responsible
for paying the Account, and anyone you authorize to use, access or service the Account.
"We," "us," "our," and HNB mean The Huntington National Bank.
Your Account
You agree to use your Account in accordance with the terms of this Agreement. You must pay us for all amounts due on
your Account, including any interest and fees. Your use of the Account or any payment on the Account indicates your
acceptance of the terms of this Agreement. Your Account must only be used for lawful transactions.
Credit Limit
We will advise you of the credit limit on your Account. A portion of your credit limit may be available for cash advances. We
may increase, decrease, restrict or cancel the credit limit or cash advance limit on your Account at any time, without
advance notice. We are not obligated to allow your Account to go over its credit limit.
Transactions Exceeding Your Credit Limit
Each time you attempt a transaction which results in your applicable outstanding balance, plus authorizations, exceeding
your credit limit, we may: (1) permit the transaction and treat the amount exceeding your credit limit as immediately due, or
(2) decline the transaction. You are responsible for the total balance on your Account, even if your balance exceeds your
credit limit.
Authorized Users
You may authorize others to use your Account. You may request that we issue Cards to additional users. They are not liable
for repayment of this Account, but may use your Account subject to the terms of this Agreement. You authorize us to
discuss your Account with the authorized users, and provide information about your Account to them.
You may request spending limits for the Authorized Users on your Account. However, because of systems or administrative
considerations, arrangements with merchants or other business reasons, certain transactions may be processed that
exceed the limit. For example, a transaction at a merchant (such as a pay-at-the pump gas station, rental car company or
hotel) might be processed even though it exceeds the limit if authorization is obtained before the merchant notifies us of
the final amount of the charge. You are responsible for paying for all transactions on your Account even if they exceed
your requested spending limit.
You must pay us for all purchases, cash advances, and any other type of transaction made by any Authorized User or
anyone else that you, or the Authorized User permit to use your Account. You must pay us even if you did not intend to be
responsible for those charges. You must notify us if you want to remove an authorized user from your Account. You must
also retrieve and destroy any and all Cards in their possession and cancel all of their billing arrangements to the Account.
Card Use
Purchases
You may purchase or lease goods or services from any merchant that accepts your Card or Account. However, we reserve
the right not to honor Quasi Cash or Cash-Equivalent purchases (e.g., Cryptocurrency, money orders, gambling chips, and
any other items that serve as cash or are convertible to cash).
1 of 12

Checks
We may provide balance transfer checks and/or cash advance checks for you to use. You may not use either of these to pay
an amount owed to us under this Agreement or to pay any other Account you may have with us.
Balance Transfers
From time to time, in our sole discretion, we may offer you the ability to transfer other balances to your Account. We do not
permit balance transfers from other accounts or loans you may have with us.
Cash Advances
You may obtain cash advances on your Account. These advances may be made from automatic teller machines (ATMs),
banks, or from cash advance checks and customer-initiated online cash advances. However, we reserve the right not to
honor ATM usage at casinos.
Overdraft Advances
You may set up this Account to cover overdrafts on your checking account. If you do, then the terms of this Agreement and
your checking account agreement will apply. For purposes of this Agreement, these transactions will be treated as cash
advances, subject to the cash advance APR, except that there will be no associated transaction fee.
Automatic Charges
You may preauthorize reoccurring transactions on your Account. If your Account is suspended, terminated or if we issue
you a new credit Card number, you will need to contact any person(s) with whom you have authorized these preauthorized
reoccurring transactions to make sure they are not interrupted.
Promotions
From time to time we may make special offers related to your Account. These offers are subject to the terms of this
Agreement unless otherwise detailed on or with the promotional offer itself.
Foreign Transactions and Exchange Rate
If you make a transaction in a foreign currency, the transaction will be converted by Mastercard International into a U.S.
dollar amount in accordance with the Mastercard operating regulations or conversion procedures. Mastercard’s currency
conversion procedure is based on rates observed in the wholesale market or government-mandated rates, where applicable.
The currency conversion rate that Mastercard uses for a particular transaction is the rate for the applicable currency on
the date that the transaction occurred. However, in limited situations, particularly where transaction submissions to
Mastercard for processing are delayed, the currency conversion rate that Mastercard uses may be the rate for the
applicable currency on the date that the transaction is processed.
Authorization of Transactions
We do not guarantee approval of transactions. We may deny any transactions for any reason at our discretion. We are not
liable for transactions that are not approved. We may limit the number of transactions approved in one day. If we detect
unusual or suspicious activity, we may suspend your credit privileges.
Illegal and Online Gambling Transactions
You agree not to use your Account for any transaction that is illegal where you live or where the transaction takes place.
You must find out if a transaction is legal before you make it. You also agree not to use your Account for any Internet or
online gambling transaction, even if it is legal. We may refuse to authorize any illegal, Internet or online gambling
transaction. If we do authorize the transaction, you agree to pay us for it unless an applicable law says you may not.
Closing Your Account
You may close your Account by notifying us in writing or over the phone. We may also close your Account or suspend
Account privileges at any time and for any reason. We may do this without prior notice to you.

2 of 12

We also have the right not to renew your Account upon its expiration.
If you or we close your Account, you must still repay the total balance in accordance with the terms of this Agreement. If
your Account is closed, you must return each Card to us upon request.
Lost or Stolen Cards, Account Numbers, or Cash Advance and Balance Transfer Checks
If we detect suspicious activity on your Account, or have confirmed that your Account information was compromised, we
may close, reissue, and/or suspend your Card(s). This may occur with or without advance notice to you.
You must contact us if any Card, Account number, or check is lost or stolen. You must also notify us if you think someone
used or may use them without your permission. You may contact us by calling the telephone number on the back of your
Card or on your billing statement or by writing us at the address listed on your statement. When you contact us, we may
require you to provide information to help in our investigation. We may require you to provide this information in writing.
Paying Your Account
Payment Instructions
You must follow the payment instructions on your billing statement. You must pay us in U.S. dollars. You can pay us by
check, money order or electronic payment that is drawn on and honored by a bank in the U.S. Do not send cash. We will
credit your payment the same day it is received as long as it is made in accordance with the instructions on your billing
statement. Payments containing restrictive words, conditions, limitations or special instructions (including items marked
“paid in full”) must be sent to a separate address indicated on your billing statement.
Minimum Payments
You must pay us at least the minimum payment due by the payment due date each billing period. The Minimum Payment
Due each billing period will depend on your APRs and New Balance.
a.

If all APRs with a balance are 23.49% or lower at the end of any billing period: You must pay the greater of:
•

$10; or

•

2% of the New Balance rounded up or down to the nearest dollar plus (1) any unpaid Minimum Payments Due from
previous bills and (2) any amount of your New Balance that exceeds your credit limit and is not already included as
part of any unpaid Minimum Payments Due from previous bills.

However, if the New Balance is less than $10, you must pay the New Balance.
b.

If any APR with a balance is over 23.49% at the end of any billing period: You must pay $15 plus (1) any interest
accrued for that billing period, (2) any Balance Transfer Fee and Expedited Payment Fee that has been assessed during
that billing period, (3) any unpaid Minimum Payments Due from previous bills and (4) any amount of your New Balance
that exceeds your credit limit and is not already included as part of any unpaid Minimum Payments Due from previous
bills. However, if the New Balance is less than $15, you must pay the New Balance.

Interest-Free Period / Interest Charges
There is no period in which you can pay back a Cash Advance, any other transaction treated as a Cash Advance under this
Agreement, or a balance transfer to avoid incurring a Finance Charge. Interest accrues daily and compounds daily on new
transactions, and balances remaining from previous billing cycles. For a cash advance using a check, the date of the
advance is the date the check is presented to us or our agent for payment. For all other cash advances, the date of the
advance is the date you obtained the advance. For purchases using the Card, there will be no Finance Charge imposed on
your purchases in any billing period in which (i) there is no Previous Balance and (ii) payments received and credits issued by
the Payment Due Date equal or exceed the New Balance. The Payment Due Date will be determined by us, but will be at
least 21 days after the Statement Closing Date shown on your last statement. The number of days between your Statement
Closing Date and your Payment Due Date (the grace period) may vary from one billing period to another. If we add a
Finance Charge, we will begin to assess the charge on each purchase from the date of purchase.
Payment Allocation

3 of 12

We reserve the right to apply payments equal to or less than the required minimum payment amount in a manner of our
choosing, which may result in balances subject to lower interest rates being paid prior to other balances. This may result in
higher interest charges.
Any payment you make in excess of the required Minimum Payment Due will be allocated to your Account as required by
applicable law.
Credit Balances
We may reject and return any payment that creates a credit balance on your Account. Any credit balance we allow will not
be available until we confirm that your payment has been cleared. You may request a refund of credit balances at any time.
We may reduce the amount of any credit balance by any new transactions billed to your Account.
Alternate Payment Methods
We may offer alternative payment methods, through a customer service representative, which would allow you to make
expedited payments to your Account over the telephone, through the Internet or other payment system. We will describe
the terms for using these services before you use them. We may charge a fee for these services. You do not have to use
these alternative payment methods however, if you do choose to use an alternative payment method, we will disclose the
then current fee amount to you before you authorize your payment.
Average Daily Balance Method (Including New Purchases)
We calculate separate Balances Subject to an Interest Rate for each type of transaction associated with your Account.

Rate We Charge
We calculate interest for each billing period by multiplying the average daily balance for each transaction type times the
applicable daily periodic rate and then multiplying that result by the number of days in the billing cycle. The applicable daily
periodic rate is 1/365th (rounded up to the nearest hundred thousandth) of the annual percentage rate for the transaction
type in effect for the billing period. We add all the interest charges for each transaction type and round to the nearest
penny, to get your total interest charges for that billing period. The daily periodic rates and annual percentage rates
generally applicable to purchases, balance transfers and cash advances are shown on your Account Opening Disclosures.

Average Daily Balance
a.

Ending Daily Balance. To get the average daily balance, we first determine the ending daily balance each day. To do
this:
•

We start with the ending daily balance from the previous day.

•

We then add to the balance:

•
b.

•

An interest charge equal to the applicable daily periodic rate multiplied by the ending balance from the prior
day (known as compounding of interest) and

•

Any new transactions or other debits (including, if applicable, any transaction fees, other fees and unpaid
interest charges).

We then subtract from each balance, as applicable, the new day’s payments and credits, and treat any net credit
balance as a zero balance.

Averaging Method. We then add together the ending daily balances for each day in the billing period. We then divide
the total for each transaction type by the number of days in that billing period. This gives us the average daily balance.

When We Add Each Transaction Type to Your Balance
We add purchases, balance transfers requested at application, or by phone, and cash advances as of the date of the
transaction.
We add cash advance checks or balance transfer checks as of the date they are presented to us for payment.
We add fees either on the date of a related transaction, the date they are posted to your Account, or the last day of the
billing period, whichever we may choose.
4 of 12

The Balance Subject to Interest Rate for each type of transaction shown on your billing statement is the sum of the daily
balances for that type of transaction divided by the number of days in the billing period.
We may use mathematical formulas that produce equivalent results to calculate the Balance Subject to Interest Rate,
interest charges and related amounts.
Minimum Interest
We will charge you a minimum FINANCE CHARGE of $1.00 for any billing period in which a Finance Charge is due.
How to Calculate Variable Rates
Variable rate APRs are calculated by adding together the Prime Rate and the margin set forth in your Account Opening
Disclosures. If the Prime Rate increases, it will cause the APR to increase. If the Prime Rate decreases, it will cause the APR
to decrease. For each billing period we use the Prime Rate published in The Wall Street Journal two business days before
the Statement Closing Date. If the Prime Rate causes an APR to change, we put the new APR into effect as of the first day
of the billing period for which we calculate the APR. We apply the new APR to any existing balances, subject to any
promotional rate that may apply. If The Wall Street Journal does not publish the Prime Rate, we will use a similar published
rate.
Effect of APR Increases
If an APR increases, interest charges will increase. Your minimum payment may increase as well.
Disclosures for "Covered Borrowers" under the Military Lending Act, 10 U.S.C. § 987("MLA")
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not
exceed an Annual Percentage Rate of 36 percent. This rate must include, as applicable to the credit transaction or account:
The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts);
and any participation fee charged (other than certain participation fees for a credit card account).
In addition, you received the Voice Credit Card Terms and Conditions which provides disclosures around the terms and
conditions of your Card. Finally, please refer to both the Voice Credit Card Terms and Conditions and the Voice Credit Card
Cardholder Agreement (page 3 “Minimum Payments”) for your payment obligations under your Account.
MLA Oral Disclosure Statement – Under the MLA, you have the right to receive certain disclosures orally. You can receive
the required MLA oral disclosures by calling 866-278-4848 a toll free phone number.

Fees
Late Fee
You agree to pay a late fee up to the amount set forth in your Account Opening disclosures if you do not pay us at least the
Minimum Payment Due for each billing period or if we receive your payment after the Payment Due Date shown on your
billing statement.
Balance Transfer Fee
For each balance transfer, you agree to pay a transaction fee equal to the amount set forth in your Account Opening
Disclosures.
Cash Advance Fee
For each cash advance, you agree to pay a transaction fee equal to the amount set forth in your Account Opening
Disclosures.
Research/Documentation Charges

5 of 12

You agree to pay $5.00 for each copy of a sales draft, credit slip, or billing statement that you request from us and $25.00
per hour for any Account research that you request from us. However, we will not assess these charges if your request is
based upon a billing error and you follow the procedures provided in the billing rights section of this Agreement.
Expedited Delivery Fee
You agree to pay a fee if you request and we agree to arrange for expedited delivery of any Card or check to you (for
example, by an overnight delivery service). We will disclose the amount of this fee at the time you request this service. If
you then confirm and we honor your request, we will charge the fee disclosed at the time of the request.
Annual Statement Fee
You agree to pay a fee of $15 to provide you with an annual summary statement showing your Account activity for the
calendar year.

Relationship Information
Communications
Until your Account is finally settled, you give direct and express consent to receive communications regarding your Account
to us, any servicers and any collectors of your Account, through various means such as (1) any cell, landline, or text number
that you provide, (2) any e-mail address that you provide, (3) auto dialer systems, (4) recorded messages, and other forms
of communications. Further, you agree that any such communications are not unsolicited for purposes of any state or
federal law.
Telephone Monitoring
As part of our continuing effort to maintain a high quality of service to our customers, telephone communications with you
may be monitored and recorded. You agree that monitoring and/or recording may be done and that no additional notice to
you or additional approval from you is needed. Please inform all persons authorized to use this Account, those acting on
your behalf, or anyone making payments on this Account, of this provision.
Alert and Text Services
Some accounts include access to mobile text messaging related services (“Text Services”) and/or e-mail and mobile text
messaging alerts (“Alerts”). You agree that we may send mobile text messages to you through your communication service
provider, as your agent, using any telephone number or e-mail address or other delivery location you have provided or we
have in our records.
The Text Services and Alerts are provided for your convenience and do not replace your monthly Account statement(s),
which are the official record of your Account. You understand and agree these services may not be encrypted and may
include personal or confidential information about you such as your Account activity or the status of your Account.
Messages may be delayed or impacted by factor(s) outside of our control. We are not responsible in those cases or for
losses or damages arising from any disclosure of Account information to third parties, non-delivery, delayed delivery,
misdirected delivery or mishandling of, or inaccurate content in, the messages sent through the Text Services and Alerts.
You agree to indemnify, defend and hold us harmless from and against any and all claims, losses, liability, cost and
expenses (including reasonable attorneys’ fees to the extent not prohibited by applicable law) arising from your provision
of a phone number, e-mail address, or other delivery location that is not your own or your violation of applicable federal,
state or local law, regulation or ordinance. Your obligation under this paragraph shall survive after your Account is closed.
You are responsible for any and all charges, including, but not limited to, fees associated with text messaging imposed by
your communications service provider.

a. HNB Text Services and Alerts- Message and data rates may apply. Such charges include those from your

communications service provider. Message frequency depends on user preferences. To cancel the Text Services,
send STOP to 446622 at any time. For help or information on the Text Services, send HELP to 446622. For
additional assistance with the Text Services, contact customer service at (800) 480-2265.

6 of 12

b. Huntington Confirm It-In addition to the Text Services indicated above, HNB provides Confirm It Fraud Alerts for your
Voice Credit Card. Confirm It is a free service that automatically notifies you of suspicious activity on your credit card
accounts via text, email and/or automated phone call. You will not be charged for Confirm It texts. Message frequency
varies and depends on card use.

Mobile carriers are not liable for delayed or undelivered messages. For more information, call (800) 340-4165. Please
note: You can opt out of Confirm It texts and/or automated phone calls at any time. Opting out applies to your credit card
Account and all cards associated with that Account. To opt out of receiving Confirm It texts, text STOP to 49847. By
texting STOP to 49847, you agree to one additional confirmation message stating you have opted out and will no longer
receive messages from Huntington Confirm It. For help, text HELP to 49847. To opt out of automated phone call fraud
alerts, call (800)340-4165.
Credit Information
You authorize us to obtain reports from consumer reporting agencies in connection with your application and any resulting
Account, including for update, review, renewal, extension, or collection of amounts owed on the Account. You also agree
that we may furnish information about you and your Account to consumer reporting agencies and others who are permitted
by law to receive it. If you believe the Account information we reported to a consumer reporting agency is inaccurate, you
may write to us at the address provided on the credit report from the consumer reporting agency. Your written dispute
must provide sufficient information to locate the Account and why you believe the information is inaccurate. If available,
provide a copy of the section of the credit report showing the Account information you are disputing.
Default
You will be in default if you fail to make any payment when due, exceed your credit limit, die, become a subject of
bankruptcy or insolvency proceedings, do not comply with any of the terms of this Agreement, or if you have provided false
information to obtain or maintain this Account. If you are in default, we may, in our sole discretion, declare all amounts you
owe to be immediately due and payable, prohibit any further transactions on your Account, cancel the Cards, and revoke
any privileges associated with the Cards. In the event of default, you agree to destroy and/or return all Cards to us or our
designee upon demand. If you are in default, we may, in our sole discretion, refuse to pay any of your cash advance or
balance transfer checks that are presented to us. If we decide to honor such checks, you will owe us the amount of such
checks under the terms of this Agreement.
Governing Law
THIS AGREEMENT IS GOVERNED BY OHIO LAW AND APPLICABLE FEDERAL LAW. THIS IS THE LAW WE ARE SPEAKING OF
WHEN WE REFER TO A TERM PERMITTED OR REQUIRED BY APPLICABLE LAW.
Change in Terms
We may add, change or delete the terms of your Account (including, but not limited to, Annual Percentage Rate and
other significant changes). If notice is required, it will be mailed to you at least forty-five (45) days prior to the
effective date of the change. Notice may also include a statement of your right to cancel the Account prior to the
effective date of the change.
Assignment
Your rights under this Agreement cannot be transferred by you, by operation of law, or otherwise, but your obligations shall
be binding upon your estate or personal representatives. We may transfer or assign your Account, and/or this Agreement,
or any of our rights under this Agreement, to another person or entity at any time without prior notice to you or your
consent.
No Waiver of Rights
We can delay enforcing our rights under this Agreement without losing them. We can accept late payments, partial
payments or checks and money orders marked as being payment in full without losing any rights under this Agreement.

7 of 12

Your Billing Rights; Keep This Notice For Future Use.
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Huntington National Bank – Dispute Resolution
PO Box 1558 GW4W61
Columbus, OH 43216
In your letter, give us the following information:
•
•
•

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.

You must contact us:
•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount
you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
•
•
•
•

We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
•
•

If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you owe and the date payment is due. We may then report
you as delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We
must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases

8 of 12

If you are dissatisfied with the goods or services that you have purchased with your credit Card, and you have tried in good
faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit Card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit Card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Huntington National Bank – Dispute Resolution
PO Box 1558 GW4W61
Columbus, OH 43216
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
Arbitration Agreement
ARBITRATION PROVISION. Arbitration is a method of resolving disputes in front of an arbitrator instead of having a trial in
court in front of a judge or jury. An “arbitrator” is a neutral person from one of the organizations listed below who will
decide the dispute. This Arbitration Provision governs when and how disputes between you and us will be arbitrated if a
dispute arises and you or we choose to arbitrate the dispute instead of having a court or jury resolve the dispute.
READ THIS ARBITRATION PROVISION CAREFULLY. IF YOU DO NOT REJECT THIS ARBITRATION PROVISION AS SET
FORTH BELOW, IT WILL BE PART OF THIS AGREEMENT AND WILL HAVE A SUBSTANTIAL IMPACT ON THE WAY YOU OR
WE WILL RESOLVE ANY CLAIM WHICH YOU OR WE HAVE AGAINST EACH OTHER NOW OR IN THE FUTURE. YOUR RIGHT
TO REJECT: If you don’t want this Arbitration Provision to apply, you may reject it by sending us a written Arbitration
Rejection Notice which (a) states that you (or both or all of you, if more than one) wish to reject the Arbitration
Provision; (b) states your name, address and Account number; (c) is signed by you and any other person who is
rejecting the Arbitration Provision; and (d) is sent by certified mail, return receipt requested, to [The Huntington
National Bank, EA4W25 - Credit Card Arbitration, P.O Box 1558, Columbus, Ohio 43272.] Upon receipt of this notice,
we will credit your Account for the standard cost of a certified letter. These are the only procedures you can use to
reject the Arbitration Provision. An Arbitration Rejection Notice is only effective if it is signed by you (all of you, if
more than one) and if we receive it within thirty (30) calendar days after the date we first provide you with a credit
Card Agreement or written notice providing you a right to reject this Arbitration Provision. Your rejection of this
Arbitration Provision will not affect any other provision of this Agreement or your ability to obtain credit. If you reject
this Arbitration Provision, that will not constitute a rejection of any prior arbitration provision between you and us.
Even if you previously rejected an arbitration provision between you and us, you will be bound by this Arbitration
Provision unless you reject it. PLEASE NOTE THAT THE JURY TRIAL WAIVER, WHICH IS LISTED BELOW, IS NOT PART OF
THIS ARBITRATION PROVISION. REJECTING THIS ARBITRATION PROVISION WILL NOT ACT AS A REJECTION OF THE
JURY TRIAL WAIVER.
(a) Parties Subject to Arbitration – Special Definitions: Solely as used in this Arbitration Provision (and not elsewhere in
this Agreement), the terms “we,” “us” and “our” mean (a) The Huntington National Bank (the "Bank"), any parent, subsidiary or
affiliate of the Bank and the employees, officers and directors of such companies (collectively, the “Bank Parties”); and (b)
any other person or company that provides any goods or services in connection with this Agreement if you assert a Claim
against such other person or company in connection with a Claim you assert against any Bank Party.
(b) What Claims are Covered: "Claim” means any claim, dispute or controversy between you and us (whether preexisting,
present or future) that in any way arises from or relates to this Agreement, your Account, the issuance of any Card, any
rewards program or any prior Agreement or Account. “Claim” includes disputes arising from actions or omissions prior to
the date any Card was issued to you, including the advertising related to, application for or approval of the Account. “Claim”
has the broadest possible meaning, and includes initial claims, counterclaims, cross-claims, third-party claims, federal, state,
local and administrative claims and claims which arose before the effective date of this Arbitration Provision.

9 of 12

It includes disputes based upon contract, tort, consumer rights, fraud and other intentional torts, constitution, statute,
regulation, ordinance, common law and equity and claims for money damages and injunctive or declaratory relief.
(c) Excluded Claim or Proceeding. Notwithstanding the foregoing, “Claim” does not include any dispute about the validity,
scope or enforceability of this Arbitration Provision or any part thereof (including, without limitation, the Class Action
Waiver set forth below and this sentence); any such dispute shall be resolved by a court and not by an arbitrator or
administrator. However, any dispute about the validity or enforceability of the Agreement as a whole is for the arbitrator,
not a court, to decide. In addition, this Arbitration Provision will not apply to (1) any individual action brought by you in
small claims court or your state’s equivalent court, unless such action is transferred, removed, or appealed to a different
court; or (2) any Claims that are the subject of a class action filed in court that is pending as of the effective date of this
Arbitration Provision in which you are alleged to be a member of the putative class for as long as such class action is
pending.
(d) Arbitration Procedures.
Electing arbitration. If you or we elect to arbitrate a Claim rather than have a court decide the Claim, the party electing
arbitration must notify the other party in writing. This notice can be given before or after the beginning of a lawsuit or with
respect to other Claims brought later in the lawsuit and can be given in papers filed in the lawsuit (for example, a motion by
the defendant to compel arbitration of claims asserted by the plaintiff in a lawsuit filed in court). Otherwise, your notice
must be sent to [The Huntington National Bank, Credit Card Arbitration, Attention: Customer Service, P.O Box 1558,
Columbus, Ohio 43272], and our notice must be sent to the most recent address for you in our files. Any arbitration hearing
that you attend will take place in a location reasonably convenient to where you reside unless you and we agree otherwise.
If a party files a lawsuit in court asserting Claim(s) that are subject to arbitration and the other party files a motion to
compel arbitration with the court which is granted, it will be the responsibility of the party asserting the Claim(s) to select
an arbitration administrator pursuant to the paragraph below and start the arbitration proceeding in accordance with the
administrator’s rules and procedures.
Arbitration administrators and rules. The arbitration administrator will be: American Arbitration Association (“AAA”),
1633 Broadway, 10th Floor, New York, NY 10019, www.adr.org, 1-800-778-7879; or JAMS, 620 Eighth Avenue, 34th
Floor, New York, NY 10018, www.jamsadr.com, 1-800-352-5267. You may contact these organizations directly if you have
any questions about the way they conduct arbitrations or want to obtain a copy of their rules and forms (which are also
available on their websites). If the AAA and JAMS are unable or unwilling to serve as administrator, the parties may agree
upon another administrator or, if they are unable to agree, a court shall select the administrator or arbitrator. No person or
company may serve as arbitrator or administrator, without the consent of all parties, if he, she or it adopts or has in place
any formal or informal policy that is inconsistent with and purports to override the terms of the Class Action Waiver in this
Arbitration Provision.
The arbitrator. A single arbitrator will be appointed by the administrator and must be a practicing attorney with ten or
more years of experience or a retired judge.
What law the arbitrator will apply. The arbitrator will not be bound by judicial rules of procedure and evidence that would
apply in a court, or by state or local laws that relate to arbitration proceedings. The arbitrator will apply the same statutes
of limitation and privileges that a court would apply if the matter were pending in court. In determining liability or awarding
damages or other relief, the arbitrator will follow the applicable substantive law, consistent with the Federal Arbitration
Act ("FAA"), that would apply if the matter had been brought in court. The arbitrator may award any damages or other relief
or remedies that would apply under applicable law to an individual action brought in court, including, without limitation,
punitive damages (which shall be governed by the Constitutional standards employed by the courts) and injunctive,
equitable and declaratory relief (but only in favor of the individual party seeking relief and only to the extent necessary to
provide relief warranted by that party’s individual claim). The arbitrator will have the authority to award fees and costs of
attorneys, witnesses and experts to the extent permitted by this Agreement, the administrator’s rules or applicable law.
With respect to Claim(s) asserted by you in an individual arbitration, we will pay your reasonable attorney, witness and
expert fees and costs if and to the extent you prevail, if applicable law requires us to or if we must bear such fees and costs
in order for this Arbitration Provision to be enforced. We will not ask you to pay or reimburse us for any of our attorney,
expert and witness fees in connection with the arbitration, regardless of which party prevails in the arbitration.
Arbitration costs. At your written request, we will pay all filing, hearing and/or other fees charged by the administrator and
arbitrator to you for Claim(s) asserted by you in an individual arbitration after you have paid an amount equivalent to the
fee, if any, for filing such Claim(s) in state or federal court (whichever is less) in the judicial district in which you reside. (If
you have already paid a filing fee for asserting the Claim(s) in court, you will not be required to pay that amount again).

10 of 12

In addition, the administrator may have a procedure whereby you can seek a waiver of fees charged to you by the
administrator and arbitrator. We will pay any fees or expenses that we are required to pay by law or the administrator’s
rules or that we are required to pay for this Arbitration Provision to be enforced.
Right to discovery. In addition to the parties’ rights to obtain discovery pursuant to the arbitration rules of the
administrator, either party may submit a written request to the arbitrator to expand the scope of discovery normally
allowable under the arbitration rules of the administrator. The arbitrator shall have discretion to grant or deny that
request.
(e) Federal Arbitration Act. The parties agree and acknowledge that the Agreement evidences a transaction involving
interstate commerce and, therefore, a federal statute, the FAA (Title 9 of the United States Code), shall govern the
interpretation and enforcement of this Arbitration Provision and proceedings pursuant thereto. To the extent state law is
applicable under the FAA, the law of the state of Ohio shall apply.
(f) Class Action Waiver. Notwithstanding any other provision of the Agreement, if either you or we elect to arbitrate a
Claim, neither you nor we will have the right: (a) to participate in a class action, private attorney general action or
other representative action in court or in arbitration, either as a class representative or class member; or (b) to join or
consolidate Claims with claims of any other persons. No arbitrator shall have authority to conduct any arbitration in
violation of this provision or to issue any relief that applies to any person or entity other than you and/or us
individually. (Provided, however, that the Class Action Waiver does not apply to any lawsuit or administrative
proceeding filed against us by a state or federal government agency even when such agency is seeking relief on
behalf of a class of borrowers including you. This means that we will not have the right to compel arbitration of any
claim brought by such an agency). The parties acknowledge that the Class Action Waiver is material and essential to
the arbitration of any disputes between them and is non-severable from this Arbitration Provision. If the Class Action
Waiver is limited, voided or found unenforceable, then the parties’ Arbitration Provision (except for this sentence)
shall be null and void with respect to such proceeding, subject to the right to appeal the limitation or invalidation of
the Class Action Waiver. The parties acknowledge and agree that under no circumstances will a class action be
arbitrated.
(g) The Arbitrator’s Decision. At the timely request of either party, the arbitrator shall write a brief explanation of the
grounds for the decision. A judgment on the arbitrator’s decision (called the “award”) may be entered by any court having
jurisdiction.
(h) Effect of Arbitration Award; Appeal. The arbitrator's award shall be final and binding on all parties, except for any
right of appeal provided by the FAA. However, if the amount of the Claim exceeds $50,000, any party can, within 14 days
after the entry of the award by the arbitrator, appeal the award to a three-arbitrator panel administered by the
administrator. The panel shall reconsider anew any aspect of the initial award requested by the appealing party. The
decision of the panel shall be by majority vote. Unless the parties agree otherwise, and to the extent feasible, the appeal
will be conducted pursuant to or modeled after the JAMS Optional Appeal Procedure, available at
http://www.jamsadr.com/rules-optional-appeal-procedure. Reference in this Arbitration Provision to “the arbitrator” shall
mean the panel if an appeal of the arbitrator’s decision has been taken. The costs of such an appeal will be borne in
accordance with the subparagraph above, captioned “Arbitration costs.” Any final decision of the appeal panel is subject to
judicial review only as provided under the FAA.
(i) Notice and Cure; Special Payment. Prior to initiating a Claim, you may send us a written Dispute Claim Notice. In order
for a Dispute Claim Notice to be valid and effective, it must: (a) state your name, address and Account number; (b) be signed
by you; (c) describe the basis of your Claim and the amount you would accept to resolve the Claim; (d) state that you are
exercising your rights under the “Notice and Cure” paragraph of the Arbitration Provision; and (e) be sent to us by certified
mail, return receipt requested, at [The Huntington National Bank, Credit Card Arbitration, Attention: Customer Service, P.O
Box 1558, Columbus, Ohio 43272.] This is the sole and only method by which you can submit a Dispute Claim Notice. Upon
receipt of a Dispute Claim Notice, we will credit your Account for the standard cost of a certified letter. You must give us a
reasonable opportunity, not less than 30 days, to resolve the Claim. If, and only if, (i) you submit a Dispute Claim Notice in
accordance with this paragraph on your own behalf (and not on behalf of any other party); (ii) you cooperate with us by
promptly providing the information we reasonably request; (iii) we refuse to provide you with the relief you request before
an arbitrator is appointed; and (iv) the matter then proceeds to arbitration and the arbitrator subsequently determines that
you were entitled to such relief (or greater relief), you will be entitled to a minimum award of at least $7,500 (not including
any arbitration fees and attorneys’ fees and costs to which you will also be entitled).

11 of 12

We encourage you to address all Claims you have in a single Deposit Dispute Claim Notice and/or a single arbitration.
Accordingly, this $7,500 minimum award is a single award that applies to all Claims you have asserted or could have
asserted in the arbitration, and multiple awards of $7,500 are not contemplated.
(j) Rules of Interpretation: This Arbitration Provision shall survive (i) the termination or closing of your Account,
(ii) the termination of any relationship between us, including the termination of this Agreement, and (iii) any bankruptcy of
any party, to the extent consistent with applicable bankruptcy law. In the event of a conflict between the provisions of this
Arbitration Provision, on the one hand, and any applicable rules of the AAA or JAMS or other administrator used or any
other terms of this Agreement, on the other hand, the provisions of this Arbitration Provision shall control.
(k) Severability. If any portion of this Arbitration Provision, other than the Class Action Waiver, is deemed invalid or
unenforceable, the remaining portions shall nevertheless remain in force.
JURY TRIAL WAIVER. TO THE EXTENT PERMITTED BY APPLICABLE LAW, IF A DISPUTE IS RESOLVED IN COURT RATHER
THAN ARBITRATION, YOU AND WE HEREBY KNOWINGLY, VOLUNTARILY, INTENTIONALLY AND IRREVOCABLY WAIVE
ANY RIGHT TO A TRIAL BY JURY IN RESPECT TO ANY LITIGATION BASED UPON OR ARISING OUT OF THIS AGREEMENT,
RELATING TO YOUR ACCOUNT, OR ANY OTHER DISPUTE OR CONTROVERSY BETWEEN YOU AND US.
IF YOU WERE A “COVERED BORROWER” UNDER THE MLA AT THE TIME THE ACCOUNT WAS ESTABLISHED, (I) THE
ABOVE ARBITRATION PROVISION AND JURY TRIAL WAIVER PROVISION, (II) ANY WAIVER OF THE RIGHT TO LEGAL
RECOURSE UNDER ANY OTHERWISE APPLICABLE PROVISION OF STATE OR FEDERAL LAW AND (III) ANY OTHER
PROVISION OF THIS AGREEMENT THAT IS NOT ENFORCEABLE AGAINST YOU UNDER THE MLA, WILL NOT APPLY TO
YOU WHILE YOU REMAIN A “COVERED BORROWER.”

The Huntington National Bank is Member FDIC. ®, Huntington®, Huntington.Welcome® and Voice Credit Card ® are federally registered
service marks of Huntington Bancshares Incorporated. VoiceSM is a service mark of Huntington Bancshares Incorporated. ©2021 Huntington
Bancshares Incorporated.
FORM: CARDHOLDERARBAGREE (06/21)
12 of 12

FACTS

WHAT DOES HUNTINGTON
DO WITH YOUR PERSONAL INFORMATION?

Why?

Financial companies choose how they share your personal information. Federal law gives
consumers the right to limit some but not all sharing. Federal law also requires us to tell
you how we collect, share, and protect your personal information. Please read this notice
carefully to understand what we do.

What?

The types of personal information we collect and share depend on the product or service
you have with us. This information can include:
· Social Security number and income
· Payment history and credit scores
· Investment experience and insurance claim history

How?

All financial companies need to share customers’ personal information to run their
everyday business. In the section below, we list the reasons financial companies can
share their customers’ personal information; the reasons Huntington chooses to share;
and whether you can limit this sharing.

Reasons we can share your personal
information

Does
Huntington
share?

Can you limit this
sharing?

For our everyday business purposessuch as to process your transactions, maintain your
account(s), respond to court orders and legal
investigations, or report to credit bureaus

Yes

No

For our marketing purposesto offer our products and services to you

Yes

No

For joint marketing with other financial companies

Yes

No

For our affiliates’ everyday business purposesinformation about your transactions and experiences

Yes

No

For our affiliates’ everyday business purposesinformation about your creditworthiness

Yes

Yes

For our affiliates to market to you

Yes

Yes

For nonaffiliates to market to you

No

We don't share

To limit our
sharing

•

Call toll-free 1-800-537-0861 – Our menu will prompt you through your choices.

Please note:
If you are a new customer, we can begin sharing your information 30 days from the
date we sent this notice. When you are no longer our customer, we continue to share
your information as described in this notice.
However, you can contact us at any time to limit our sharing.

Questions?

Call toll-free 1-800-480-BANK (2265) or go to huntington.com

Page 2

Who we are
Who is providing this notice?

Huntington companies that are financial service providers, such as
banks, mortgage companies, vehicle leasing companies, securities
brokers, investment advisors and insurance agencies.

What we do
How does Huntington protect my
personal information?

To protect your personal information from unauthorized access and
use, we use security measures that comply with federal law. These
measures include computer safeguards and secured files and
buildings.

How does Huntington collect my
personal information?

We collect your personal information, for example, when you
• Open an account or apply for a loan
• Make deposits or withdrawals from your account
• Apply for insurance or seek advice about your investments
We also collect your personal information from others, such as
credit bureaus, affiliates, or other companies.

Why can’t I limit all sharing?

Federal law gives you the right to limit only
· Sharing for affiliates’ everyday business purposes—information
about your creditworthiness
· Affiliates from using your information to market to you
· Sharing for nonaffiliates to market to you
State laws and individual companies may give you additional rights
to limit sharing. See Page 3 for more on your rights under state law.

What happens when I limit
sharing for an account I hold
jointly with someone else?

Your choices will apply only to you – unless you tell us otherwise.

Definitions
Affiliates

Companies related by common ownership or control. They can be
financial and nonfinancial companies.
· Our affiliates include companies with a Huntington name and
financial companies, such as banks, mortgage companies, vehicle
leasing companies, securities brokers, investment advisors, and
insurance agencies.

Nonaffiliates

Companies not related by common ownership or control. They can
be financial and nonfinancial companies.
· Nonaffiliates we share with can include banks, securities
broker-dealers, insurance companies, data processors, software
companies, collection agencies, credit bureaus, marketing
service providers, and state and federal government agencies.

Joint marketing

A formal agreement between nonaffiliated financial companies that
together market financial products or services to you.
· Our joint marketing partners include financial institutions with
whom we have joint marketing agreements, such as insurance
companies, mutual fund companies, and motor vehicle dealers.

Page 3

Other important information
State Disclosures
In addition to your rights described below and in this notice, you may have other rights under state laws. We
will comply with applicable state laws with respect to our information practices.
Important information for Ohio residents that apply for or obtain an insurance product for personal, family, or
household purposes from a Huntington insurance agency –
We may collect personal information from sources other than the persons proposed for insurance coverage
(see, for example, the "How does Huntington collect my personal information?" section on Page 2). We may
also disclose that information, as well as other personal or privileged information subsequently collected, to
third parties outside Huntington without your authorization to the extent disclosure is permitted by law. Ohio law
provides a right to review and correct personal information that Huntington collects about you. To receive a
more detailed description of our information practices, please write to us at: Huntington Customer Information
Services, Ohio Insurance Information Practices, P.O. Box 1558, HP0700, Columbus, Ohio 43216.
California and Vermont Customers have other protections under state law. If your primary mailing address is in
California or Vermont, we will not share your credit or financial information that we collect except as permitted
by law, including, for example, with your consent or to service your account. We will also not use your
information for joint marketing purposes. We do not share customer information with third parties except as
permitted by law.
Important information for Nevada residents – At any time, you may request to be placed on Huntington's
internal do-not-call list by calling us toll-free at 1-800-537-0861. Nevada law requires that we provide you with
the following contact information to enable you to obtain further information: (i) Huntington Customer
Information Services, Nevada Do-Not-Call Information, P.O. Box 1558, EA4W58, Columbus, Ohio 43216,
Phone: 1-800-480-BANK (2265), Email: privacy@huntington.com, and (ii) Bureau of Consumer Protection,
Office of the Nevada Attorney General, 555 E. Washington Street, Suite 3900, Las Vegas, Nevada 89101,
Phone: 1-702-486-3132, Email: BCPINFO@ag.state.nv.us.
Affiliates Providing this Notice
·
·
·
·
·
·

The Huntington National Bank (deposits, loans, trust, credit cards, and other banking services), also using the name
Huntington Mortgage Group (mortgage lending)
Huntington LT (vehicle leasing)
The Huntington Investment Company (investments)
Huntington Asset Advisors, Inc. (investment advisory services)
Huntington Insurance, Inc. (insurance)
HBI Title Services, Inc. (insurance)

Additional Information Collection and Use Disclosures
Your Choice About
Promotional Offers

You may call us toll-free at 1-800-537-0861 to tell us your preferences about receiving
special pricing or other promotional offers from us. If you do that, however, our ability
to tell you about offers that may benefit you and help you save and invest in your
future may be limited. Whether or not you make this choice, we will still contact you
from time to time about your accounts and provide account mailings to you, such as
statements and notices. We may also include special pricing or other promotional
offers with such account mailings.

Correcting Errors in
Information We Share
with Consumer
Reporting Agencies

If you believe any of the information we share with a consumer reporting agency is in
error, please let us know. Write to us at: Huntington Customer Information Services,
Consumer Reporting Agencies, P.O. Box 1558, EA4W25, Columbus, Ohio 43216.
Please provide us with your complete name, current address, phone number and
Social Security number. You will also need to include your account number, type of
account, the specific item in dispute and other supporting documentation or information
we reasonably require. You must tell us the reason you believe this information has
been reported in error.

Identity Theft

The law provides certain rights to victims of identity theft. If you believe you are a
victim of identity theft with respect to any of your accounts or transactions with us, you
may notify us at: Huntington Customer Information Services, Identity Theft, P.O. Box
1558, EA3W21, Columbus, Ohio 43216. Please provide as much detail as possible
about the accounts or transactions in question, including any dates and account or
transaction numbers that apply. We may contact you to discuss additional information
necessary to resolve the matter. For more information about our identity theft policies
and practices, please visit huntington.com and type “ID Theft” in the search box. There
you will find helpful information about how to protect yourself. You will also find
additional information on what to do if you believe you are a victim of identity theft.

Important Information
About Procedures for
Opening a New
Account

To help the Government fight the funding of terrorism and money laundering activities,
federal law requires all financial institutions to obtain, verify, and record information
that identifies each person who opens an account. What this means for you: When you
open an account, we will ask for your name, address, date of birth and other
information that will allow us to identify you. We may also ask to see your driver’s
license or other identifying documents.

For Our Insurance
Customers

From time to time, a Huntington insurance agency may review your account and obtain
additional quotes on your insurance program to ensure your competitive place in the
market. To perform this service, our quoting carriers will utilize certain consumer report
information, such as motor vehicle reports, claim history reports, and credit reports.
You may request that our insurance agencies not provide this service by emailing
insurance.compliance@huntington.comor by writing to us at: Huntington Insurance, Insurance
Opt-Out, P.O. Box 1558, HP0700, Columbus, Ohio 43216. Please include your name,
address, telephone numbers, the specific policy numbers and Social Security numbers
on your written request.

Member FDIC.

® and Huntington® are federally registered service marks of Huntington Bancshares Incorporated.

©2021 Huntington Bancshares Incorporated.

FORM: PrivDoc (11/18)

